  FOR IMMEDIATE RELEASE                                                      May 21, 2013
  Media Contact: (202-565-3908)

        DENVER BUSINESSMAN SENTENCED TO 30 MONTHS IN PRISON FOR
          SCHEME TO DEFRAUD THE EXPORT-IMPORT BANK OF THE U.S.

WASHINGTON, D.C. – The Office of Inspector General (OIG) for the Export-Import Bank of
the United States (Ex-Im Bank) announced that on May 15, 2013, the owner of a steel supply
company in Denver, Colorado was sentenced to 30 months in prison for his role in a scheme
to defraud Ex-Im Bank of approximately $11,183,275.

Luis E. Moy, 47, was sentenced by Judge Lewis Babcock in U.S. District Court in Denver,
CO. Moy pleaded guilty last year on May 16, 2012 to one count of conspiracy to commit wire
fraud and one count of wire fraud in connection with a scheme to defraud Ex-Im Bank of
approximately $11,183,275. In addition to his prison term, Moy was sentenced to 60 months
years of supervised release and was ordered to pay $11,183,274.79 in forfeiture.

According to court documents, Moy, a legal permanent resident, was the owner of a metal
building design and export business in Denver. Moy admitted that between 2004 and 2009,
he acted as the exporter in 11 fraudulent Ex-Im Bank insured or guaranteed loans totaling
$11,183,275. Moy admitted that he and others entered into a conspiracy and scheme to
defraud a lending bank and Ex-Im Bank to obtain and misappropriate loan proceeds for
personal use rather than to purchase and export U.S. manufactured products into Mexico. In
furtherance of the scheme, Moy admitted that he and others conspired to make false
statements about the purchase of U.S. manufactured equipment, supplied false invoices, and
falsified other records to fraudulently represent to the lending bank and Ex-Im Bank the
purchase and export of U.S. goods to various buyers in Mexico. Moy admitted that he
retained approximately $1,249,010 for his own personal use and benefit. As a result of the
fraud, all of the loans defaulted, causing Ex-Im Bank to pay $7,486,861 in claim payments to
the lending bank.

The U.S. Department of Justice Criminal Division Fraud Section and the U.S. Attorney’s
Office for the District of Colorado are prosecuting the case. Ex-Im Bank OIG, Homeland
Security Investigations in El Paso, and the Federal Bureau of Investigations in Washington,
DC investigated the case.

Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs by
filling gaps in private export financing. Ex-Im Bank provides a variety of financing
mechanisms to help foreign buyers purchase U.S. goods and services.

Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or regulations,
fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of authority
connected with Ex-Im Bank's programs and operations. Additional information about the OIG


               811 Vermont Avenue, N.W. Washington, D.C. 20571
can be found at www.exim.gov/oig. Complaints and reports of fraud, waste, and abuse
related to Ex-Im Bank programs and operations can be reported to the OIG hotline at 888-
OIG-EXIM (888-644-3946) or via email at IGhotline@exim.gov.

                                           ###
